Audit of USAID-Financed Technical Assistance
for Agricultural Activities in Egypt

Audit Report No. 6-263-02-004-P
September 9, 2002




                     Cairo, Egypt
    RIG/Cairo


September 9, 2002

MEMORANDUM
FOR:            Director, USAID/Egypt, Willard J. Pearson, Jr.
                Director, Procurement Office, USAID/Egypt,
                Carlton Bennett

FROM:           RIG/Cairo, Darryl T. Burris /s/

SUBJECT:        Audit of USAID-Financed Technical Assistance for Agricultural
                Activities in Egypt

This report presents the results of our audit. It contains one recommendation for
the Contracting Officer to add in a contract Statement of Work the task level
milestones that were omitted during the contract modification process.

Based on the documentation provided by the Contracting Officer,
Recommendation No. 1 is closed upon report issuance.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                    1
Table of   Summary of Results                                                    3
Contents
           Background                                                            3

           Audit Objective                                                       4

           Audit Findings                                                        4

                  Did USAID/Egypt monitor the technical assistance provided
                  for Egypt’s agricultural sector in accordance with the USAID
                  Automated Directives System?                                   4

                         USAID/Egypt Needed to Better Modify Contracts
                         as Activities Changed                                   5

           Management Comments and Our Evaluation                                10

           Appendix I - Scope and Methodology                                    11

           Appendix II - Omitted Task Level Milestones for the Agriculture
                         Led Export Business Project                             13




                                                                                     2
Summary of   Regional Inspector General/Cairo audited USAID-financed technical assistance
Results      for the agricultural sector in Egypt to determine whether USAID/Egypt
             monitored the assistance in accordance with USAID’s Automated Directives
             System (page 4).

             USAID/Egypt generally followed the Automated Directives System in monitoring
             the technical assistance. However, the Mission needed to more consistently
             modify contract Statements of Work when changes occurred (page 4).

             Cognizant Technical Officers perform a critical role in monitoring the
Background   performance of contractors to ensure that results are achieved. USAID’s
             Automated Directives System1 says that assessing performance of contractors in
             the achieving stage normally refers to whether the outputs produced by the
             contractor are timely and of acceptable quality. Outputs are specifically described
             in contract Statement of Works. Their production and use are critical to achieving
             results. Delays in completing outputs, or problems in achieving output quality,
             provide an early warning that results may not be achieved as planned.

             USAID/Egypt financed technical assistance for the agricultural sector in Egypt
             through three activities: (1) Agricultural Technology Utilization and Transfer
             Program, (2) Agricultural Policy Reform Program, and (3) Agriculture Led Export
             Business Project under the Growth through Globalization Program. Through
             these three activities, USAID/Egypt awarded contracts to eight contractors. As of
             September 2001, total commitments for the contracts amounted to $79,997,931,
             with incurred expenditures of $73,758,723.

             The Agricultural Technology Utilization and Transfer Project had three
             components:

             •     A horticulture component intended to transfer new horticulture production, post-
                   harvesting and marketing technologies to the private sector.

             •     A food crops component funded research aimed at resolving the major
                   constraints to increased productivity of wheat, maize, rice, and fava beans.

             •     A biotechnology component supported genetically engineered crop production
                   to introduce stress and pest resistance into high value crops.

             The prime technical assistance contract for this Project was a three-year, $14.5
             million activity with expected outcomes to help increase the value of horticultural
             exports. The contract was signed in April 1996 and was originally scheduled to
             operate through April 1999. The contract was extended to September 2002.

             1
                 ADS.202.3.4 Monitoring Quality and Timeliness of Key Outputs.
                                                                                                  3
                  For the Agricultural Policy Reform Program, USAID executed contracts for six
                  contractors to provide technical assistance. These contracts obligated $42.7
                  million in technical assistance.

                  One contract selected for review under this Program was intended to help: (1)
                  evaluate and formulate new strategies and policies to achieve water use efficiency
                  and (2) develop policies on drainage to increase awareness and encourage water
                  conservation and pollution prevention, particularly among farmers. This contract
                  was a $11.3 million Task Order under an Indefinite Quantify Contract signed in
                  August 1997, with a revised completion date of March 31, 2002.

                  For the Agriculture Led Export Business Project, USAID awarded a three-year,
                  $14.7 million contract with an optional three-year, Phase 2 funding extension.
                  The contract was signed in February 1999 and was scheduled to end on
                  December 31, 2001. A follow-on award was signed for additional funding
                  through December 31, 2004. The purpose of this Project was to increase exports
                  of Egyptian processed foods. The Project was intended to focus on helping
                  Egyptian food processors diversify their export markets by providing market
                  information, new food processing technologies, and product improvement
                  services for target products.



Audit Objective   RIG/Cairo performed this audit to answer the following question:

                  •   Did USAID/Egypt monitor the technical assistance provided for Egypt’s
                      agricultural sector in accordance with the USAID Automated Directives
                      System?

                  Appendix I describes the audit’s scope and methodology.



Audit             Did USAID/Egypt monitor the technical assistance provided for Egypt’s
Findings          agricultural sector in accordance with the USAID Automated Directives
                  System?

                  USAID/Egypt generally followed the USAID Automated Directives System in
                  monitoring the technical assistance provided for Egypt’s agriculture sector.
                  However, USAID/Egypt needed to place greater emphasis on the contract
                  modification process.

                  For the three contracts selected for review, USAID/Egypt generally followed the
                  requirements of the Automated Directives System for the following items tested:

                  •   Technical Officers reviewed and approved deliverables and performance
                      reports.

                                                                                                       4
•     Technical Officers monitored contract performance and maintained a work
      file for the contracts monitored.
•     Technical Officers approved all interim payments submitted.
•     Technical Officers prepared annual Contractor Performance Reports.

For example, the files for the three contracts showed that the Technical Officers
reviewed the progress reports of the contractors, matched that progress with work
objectives, and referred problems and issues to the Mission’s Strategic Objective
Team.

In addition to the above monitoring, the Economic Growth Directorate used
another tool through its monitoring and evaluation unit. This unit performed a
client satisfaction review to assess the performance of activities supported under
the Growth through Globalization Results package. This tool was used to obtain
direct feedback from clients on the benefit, value, and results of services
provided.

For two of three contracts, however, the contractors' work changed without
always obtaining formal Contracting Officer approval for a modified Statement of
Work. The following section discusses this issue.

USAID/Egypt Needed to Better
Modify Contracts as Activities Changed

USAID’s Automated Directives System requires Cognizant Technical Officers to
refer contract changes to the Contracting Officer for formal action and approval.
For two contracts reviewed, the contractors' work changed without consistently
obtaining formal Contracting Officer approval for a modified Statement of Work.
For one instance, USAID/Egypt changed the task deliverables from those
specified in the Statement of Work to those specified in annual work plans, but
the Mission did not completely formalize this change through a contract
amendment. For the second contract, an error occurred in the preparation of a
modification to change the Statement of Work. Without formal approval of
changes to contract work requirements, USAID/Egypt (1) risked entering into
unauthorized commitments2 with the contractors and (2) lacked a solid basis to
objectively evaluate the effectiveness of contractor performance.

USAID recognizes that adjustments in tactics should be made when conditions
warrant.3 Adjustments may include developing an entirely new activity and
2
 FAR Subpart 1.602-3 defines an unauthorized commitment as an agreement that is not binding
because the Government representative who made it lacked the authority to act on behalf of the
Government. Department of Defense examples of an unauthorized commitment are (1)
authorizing new work to the contract without notifying the Contracting Officer or having a
modification in place or (2) directing the contractor in any way that may be deemed outside of the
scope of work.
3
    ADS 202.3.4.3 Making Necessary Adjustments
                                                                                                 5
instrument, or may simply mean modifying and changing existing activities. In
either case, a change requires involving the Contracting or Agreement Officer
early in the process.

Involving the Contracting Officer early in the contract modification process can
facilitate compliance with the Federal Acquisition Regulation,4 which does not
allow the Contracting Officer to delegate the contract modification function. This
Regulation says that only Contracting Officers acting within the scope of their
authority are empowered to execute contract modifications on behalf of the
Government. Other Government personnel shall not:

•     execute contract modifications;
•     act in such a manner as to cause the contractor to believe that they have
      authority to bind the Government; or
•     direct or encourage the contractor to perform work that should be the subject
      of a contract modification.

To help ensure compliance with the Federal Acquisition Regulation, USAID’s
Automated Directives System requires Cognizant Technical Officers to report all
contract problems and refer contract changes to the Contracting Officer for formal
action and approval.5 These Technical Officers have the responsibility for
monitoring contractor performance.6 In carrying out their responsibilities, the
Technical Officers should ensure that changes in the work to be performed or any
changes in the delivery schedule are formally put into effect by written
supplemental agreements or change orders. The Contracting Officer must then
issue these documents before the contractor proceeds with the changes.

Contrary to the preceding requirements, the contractors' work changed without
always obtaining formal Contracting Officer approval of the changes to the
Statements of Work for two contracts: (1) the prime contract under the
Agricultural Policy Reform Program and (2) the prime contract under the
Agriculture Led Export Business Project.

Prime Contract Under the Agricultural Policy Reform Program -
USAID/Egypt changed the task deliverables from those specified in the Statement
of Work to those specified in annual work plans, but the Mission did not
completely formalize this change through a contract amendment.

USAID/Egypt executed a Task Order under an Indefinite Quantity Contract to
provide technical assistance in support of the Egyptian Ministry of Water
Resources and Irrigation efforts to increase the efficiency and productivity of

4
 FAR Subpart 43.102
5
 Chapter VIII App. 1, Guidebook for Managers and Cognizant Technical Officers on Acquisition
and Assistance, issued November 1998.
6
    ADS 202.3.4 Monitoring Quality and Timeliness of Key Outputs
                                                                                           6
Egypt's Nile water system under the Agricultural Policy Reform Program. The
overall objective of this Task Order was to help this Ministry accomplish the
benchmarks for a USAID cash transfer. The Task Order, effective May 7, 1997,
contained a Statement of Work that included 53 activity tasks for the contractor to
accomplish.

According to the responsible USAID/Egypt official, the Mission operationally
switched to establishing performance indicators in annual work plans to achieve
contract objectives after executing the contract. Each year’s tasks were decided at
an annual conference held with USAID, contractors, the Ministry, and other
interested parties to formulate, refine, and approve the benchmarks for a USAID
cash transfer. After the conclusion of each conference, the contractor then
prepared an annual work plan and presented it to USAID and the Ministry of
Water Resources and Irrigation at another meeting. The comments and
suggestions provided at this meeting were then incorporated into the final work
plan.

USAID/Egypt did modify the contract in February 2000, revising the Statement of
Work to read "for the period starting July 1, 2000,…Specific work within the task
areas found below will be developed and agreed to in annual work plans."
However, this modification did not address the original 53 tasks in the Statement
of Work prior to July 1, 2000, nor did it ratify the use of annual work plans to
establish contract work requirements prior to this modification.

USAID/Egypt changed to defining task deliverables in annual work plans to
better achieve its strategic objective of policy reform. However, the change was
not completely formalized through a contract amendment that addressed the 53
tasks in the original Statement of Work. The Technical Officer did not believe it
was necessary to amend the contract because the contractor had satisfactorily
performed the annual work plans, which ultimately achieved the Mission’s overall
goal of policy reforms. The Technical Officer also said that only three of the tasks
in the original Statement of Work were not accomplished and the others were
implemented under the annual work plans. As a result, we are not making a
recommendation to modify this contract.

Prime Contract Under the Agriculture Led Export Business Project - The
Contracting Officer did not amend the Statement of Work to reflect all changes in
contractor milestones for the second and third year of the contract. USAID/Egypt
inadvertently omitted the changes to the task level milestones when modifying the
second year milestones for the Statement of Work. For the third year
deliverables, the Mission did not formally change the contract level milestones,
although that was the intent of both USAID and the contractor.

The prime contract under the Agriculture Led Export Business Project was a
Cost-Plus-Award-Fee-Contract, and the contractor's fee was originally based on


                                                                                   7
performance. The contract was later changed to a Cost-Plus-Fixed-Fee. The
contract Statement of Work had three levels of objectives or milestones:

1. The first level was the contract level milestone, which was "to significantly
   increase, to at least $73 million and 63,974 metric tons by the end of the first
   three years, private sector processed food exports."
2. The second level was the task level milestone. An example of this level of
   milestone is "50% of targeted agribusiness companies using new technologies
   or have developed new product lines".
3. The lowest level objective was the task level indicator. An example of a task
   level indicator is "target firms participate in 5 trade fairs and/or study tours
   during Yr 2." According to the Contracting Officer, the contractor was paid to
   accomplish this level of objectives.

USAID/Egypt modified the contract when the contractor and the Technical
Officer proposed a change to its second year milestones. Both considered this
modification necessary because the original baseline data provided in the Request
for Proposal was obsolete by the time the contract was awarded. In executing the
contract amendment, however, the Mission inadvertently omitted the
modifications for the task level milestones that both the Mission and the
contractor had intended (See Appendix II). The Contracting Officer did approve
these changes through a later modification to the Statement of Work when
informed about this error during the audit.

The second issue occurred when the contractor requested a change to its third year
milestones under the Statement of Work. The Technical Officer did follow
USAID guidance by preparing a written document that reflected the proposed
milestone changes. According to the Technical Officer, by the time this written
document was approved, an evaluation team for the activity was onboard.
Therefore, the document didn’t proceed to the Contracting Officer and was halted.
USAID/Egypt later submitted a modification to change the contract level
milestones.

USAID/Egypt inadvertently omitted the task level milestones to Contract
Modification Number 3 because of complexities involved with this kind of
contract. The Technical Officer attributed the error to a constant need to modify
this particular type of contract. According to the Technical Officer, this was the
only technical assistance contract his Directorate had awarded that had a
Statement of Work covering three years of milestones/indicators. In addition, the
deliverables were broken down by trimester, which totaled up to more than 144
task level indicators. Therefore, according to USAID/Egypt, it usually took three
months to do a contract modification when it involved changing contract
deliverables. The Mission switched to annual work plans for this contract so that
the deliverables could be more responsive annually to the industry needs and cope
with the dynamic market changes.


                                                                                  8
We recognize the Technical Officer’s assessment that a Statement of Work
covering three years of milestones is difficult to write. This may explain why the
Statement of Work (See Appendix II) for the Agriculture Led Export Business
Project contract was not always clearly written or adequately defined. For
example the task level milestone, “50% of targeted agribusiness companies using
new technologies or have developed new product lines” did not lend itself to
measuring when and if the milestone was accomplished. First, there was no
indication of the number of companies to be targeted. Second, the milestone did
not describe what new technologies should be used that will achieve the
milestone.

In contrast, other milestones were better defined and more closely matched the
contract level milestone to significantly increase private sector processed food
exports. For example the milestone to train 100 processing firms in international
quality requirements for European, U.S. or Gulf markets described more clearly
what was being measured and had a connection to increasing food exports.


                                    *****

Without formal approval of changes to contract work requirements, USAID/Egypt
(1) risked entering into unauthorized commitments with the contractors and (2)
lacked a solid basis to objectively evaluate the effectiveness of contractor
performance.

Under the prime contract for Agriculture Led Export Business Project, the
contractor worked on the 144 task level indicators but the higher task level
milestones had not been corrected and approved by the Contracting Officer until a
later modification. Without formal approval of changes to a contractor's
Statement of Work, disputes over contract deliverables could result.

Statements of Work should provide an objective measure to evaluate the
effectiveness of contractor performance. USAID Guidance recognizes that the
Statement of Work is probably the single most critical document in the acquisition
processes. It describes the work to be performed or the service to be rendered and
desired results, and it defines the respective responsibilities of the Government
and the contractor. Statements of Work that do not define exactly what is wanted
can generate contract management problems and result in unsatisfactory
contractor performance, delays, disputes, and higher contract costs. To avoid
such problems, we are making the following recommendation:




                                                                                    9
                        Recommendation 1: We recommend that the Contracting Officer,
                        USAID/Egypt, modify the Statement of Work for the prime contract
                        under the Agriculture Led Export Business Project to add the
                        contract and task level milestones that were omitted during the
                        contract modification process.

                 USAID/Egypt agreed that errors occurred when modifying the prime contract
                 under the Agriculture Led Export Business Project. Therefore, the Contracting
                 Officer amended the contract to add the contract and task level milestones that
                 had been missing from the original modifications. Based on the documentation
                 provided by the Contracting Officer, Recommendation No. 1 is considered closed
                 upon report issuance.



Management       USAID/Egypt did not comment on the draft report.
Comments and
Our Evaluation




                                                                                              10
                                                                                      Appendix I

 Scope and     Scope
eMethodology
               The audit was performed in accordance with generally accepted government
               auditing standards and assessed whether USAID/Egypt monitored the technical
               assistance provided to Egypt’s agricultural sector in accordance with the
               Automated Directives System. USAID/Egypt initially requested that we review
               the technical assistance under the Agricultural Technology Utilization and
               Transfer Program. We expanded the objectives of the audit to include all
               technical assistance contracts for the agricultural sector by adding two additional
               USAID financed activities: (1) Agricultural Policy Reform Program and (2)
               Agriculture Led Export Business Project under the Growth through Globalization
               Program.

               The audit was originally designed to assess whether the technical assistance
               produced the results called for by the contracts. However, we encountered
               difficulty doing so for several reasons. First, the contracts selected for review
               were issued during a time when USAID was undergoing reengineering, and
               different processes and rules applied. After we began our work, we learned that
               further changes were expected and that one of the OIG’s Washington Divisions
               would be leading some audit efforts to assist in the contracting process. Second,
               for the Indefinite Quantity Contract that we selected, we learned that more than
               one contractor contributed to the outputs in the annual work plans. In light of the
               fact that USAID planned to use two models of Indefinite Quantity Contracts
               (down from 15), we terminated further testing. Third, we encountered issues with
               the clarity of some scopes of work. Fourth, we encountered some issues where
               the annual work plans were used to establish contractor work requirements rather
               than the Contracting Officer-approved requirements specified in the Statements of
               Work. These latter two issues impaired the ability of both USAID/Egypt and our
               auditors to objectively measure and evaluate contractor performance. Since these
               issues are covered under the first audit objective, we decided to drop the second
               audit objective to assess technical assistance results.

               Our audit covered management controls related to monitoring. Those controls
               included:

               •   Reviewing and approving deliverables and performance reports.
               •   Maintaining a Cognizant Technical Officer work file.
               •   Reporting variations, proposed substitutions, and problems.
               •   Recommending modifications.
               •   Analyzing financial reports.
               •   Approving interim payments.
               •   Preparing annual Contractor Performance Reports.




                                                                                                11
                                                                      Appendix I


Fieldwork was performed intermittently at USAID/Egypt and at the Agriculture Led
Export Business’s offices in Cairo, Egypt from May 2001, through June 2002.

We reviewed USAID's monitoring over 3 of 8 agricultural technical assistance
contracts. The amount awarded under these three contracts totaled $45.9 million.


Methodology

The audit began with a series of meetings with program officials, and reviews of
relevant documents to gain an understanding of the Mission agricultural sector
activities as they pertain to the USAID-financed technical assistance activities
mentioned above.

To determine whether USAID/Egypt monitored the technical assistance provided
to its agricultural sector activities in accordance with the Automated Directives
System, we interviewed USAID/Egypt officials to obtain their views on
monitoring mechanisms in place. We also obtained and reviewed contractor
quarterly and annual reports provided to the Mission, as well as various contract
and subcontract agreements, and related contract amendments. In reviewing the
contracts and subcontracts, we evaluated the Statements of Work and compared
them with contractors' quarterly and annual performance reports. Further, we
reviewed pertinent criteria (Automated Directives System Section 202, Federal
Acquisition Regulation Subpart 44.2, and the Guidebook for Managers and
Contracting Technical Officers on acquisition and assistance).

We judgmentally selected the three contracts for audit by selecting one contractor
from each of the three technical assistance activities.

Because this was a performance audit of judgmentally selected contracts from a
small universe, we identified reportable issues based on factors of significance
and sensitivity rather than upon a predetermined materiality threshold. Our
conclusions are limited to the items tested.




                                                                                   12
                                                                                               Appendix II


Omitted Task                         Agriculture Led Export Business Project
Level          Task 1 - Expand targeted export marketing product information
Milestones          Original Task Level Milestones            Omitted Task Level Milestones
                                                          that Were Included in Modification 10
               Milestone 1
               MarketPulse Information System (MPS)     MPS or similar internal systems routinely
               technology used for management in 50%    accessed as a part of the business activities
               of target agribusinesses.                in 50% of the targeted agribusinesses.

               Milestone 2
               MPS demonstrating high client use through MarketPulse Egypt Information System
               various dissemination channels including (MPE) reaching clients through various
               internet.                                 dissemination channels, including internet.


               Task 2 - Expand processing technologies and services
                    Original Task Level Milestones            Omitted Task Level Milestones
                                                          that Were Included in Modification 10
               Milestone 1
               80 targeted agribusiness companies using 50% of targeted agribusiness companies
               new technologies or have developed new    using new technologies or have developed
               product lines.                            new product lines.

               Milestone 2
               80 companies using quality control          50% of targeted agribusiness companies
               management practices and 50 companies       using quality management practices.
               meeting HACCP and/or ISO standards.


               Task 3 - Expand international marketing, management, and technical skills
                    Original Task Level Milestones             Omitted Task Level Milestones
                                                           that Were Included in Modification 10
               Milestone 1
               50 agribusinesses knowledgeably           75% of targeted agribusinesses trained in
               conducting export market penetration and various business development disciplines
               using improved management techniques.     (including international marketing and
                                                         management concepts), and 50% applying
                                                         improved methods.

               Milestone 2
               100 processing firms have been trained in   None.
               international quality requirements for
               European, U.S. or Gulf markets, and 50%
               are applying improved methods.




                                                                                                        13
                                                                                                Appendix II




               Task 4 - Enhance association and private sector export services
Omitted Task        Original Task Level Milestones               Omitted Task Level Milestones
Level                                                        that Were Included in Modification 10
               Milestone 1
Milestones     Improve trade association and service firm Trade association and service firm
               assistance to their agribusiness clients as assistance to their agribusiness clients
               demonstrated by membership increases in improved, as demonstrated by increased
               targeted trade associations up by 40% and membership in targeted trade associations
               targeted service firm business increased by by 10%. Targeted service firms will have
               20%.                                        increased business with food processing
                                                           firms by 5%.

               Milestone 2
               Membership of 10 targeted associations or   4 associations involved in domestic policy
               advocacy groups actively engaged in         dialogue, based on their strategies and work
               policy dialogue with Egyptian government    plans; and 2 associations involved in
               and membership of 8 associations are        advising the government on international
               engaged at the international level.         policy and regulatory issues affecting
                                                           private business, especially exporters.


               Task 5 - Expand and enhance strategic alliances
                    Original Task Level Milestones              Omitted Task Level Milestones
                                                            that Were Included in Modification 10
               Milestone 1
               25 strategic alliances formed and Egyptian 25 strategic alliances formed and Egyptian
               companies accessing new markets and        companies accessing new markets and
               technologies.                              technologies.

               Milestone 2
               80% of target Egyptian agribusinesses       50% of target agribusinesses using multiple
               using multiple sources for accessing        sources for accessing information about
               information, technology, inputs, markets,   technology, inputs, markets, and strategic
               and strategic alliances.                    alliance opportunities.




                                                                                                          14
